 

DUANE YATES,
Petitioner-Appellant,

vs.

PATTY WACHTENDORF,

Respondents-Appellee.

 

MOTION FOR LEAVE TO APPEAL JN FORMA PAUPERIS
Petitioner, Duane Yates, asks for leave to file the attached petition in forma
pauperis. Mr. Yates has previously been permitted to appeal in forma pauperis
before the 8" Circuit, and United States District Court in the Northern District of
Iowa. Mr. Cole was appointed under the Criminal Justice Act of 1964, 18 U.S.C. ยง
3006A. See Appx. C and F. Thus, Mr. Yates seeks leave to present this Petition

for Certiorari under the United States Supreme Court Rule 39.1.

Ro Ns

ROCKNE O. COLE

209 E. Washington Street
Paul-Helen Building, Ste 304

Iowa City, Iowa 52240

(319) 519-2540 Office

(319) 359-4009Fax

ATTORNEY FOR PETITIONER
